No.
De
IN THE SUPREME COURT OF THE UNITED STATES
ANDRES KEYON ROMAN,
Petitioner
Vv.
UNITED STATES OF AMERICA,

Respondent

ee

MOTION TO PROCEED IN FORMA PAUPERIS
a

Pursuant to Title 18, United States Code, Section 3006A(d)(7) and Rule 39 of this Court,
Petitioner, ANDRES KEYON ROMAN, asks leave to file the Attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Fifth Circuit without prepayment of fees
or costs and to proceed in forma pauperis.

Petitioner was represented by counsel appointed pursuant to Title 18, United States Code,
Section 3006(a) in the United States District Court for the Western District of Texas and on
appeal to the United States Court of Appeals for the Fifth Circuit.

Respectfully submitted,

Steve Hershberger, Attorney at Law
Texas State Bar # 09543950

600 No. Marienfeld St., Ste 1035
432-570-4014

Attorney for Petitioner
State of Texas )
County of Midland )
DEPOSITOR, being first duly sworn, deposes and says under oath:

That on October , 2020, the Petitioner for Writ of Certiorari, the in the above-entitled case,
was deposited in a United States Post Office mail box located in Midland, Midland County,
Texas, with first class postage prepaid, properly addressed to the Clerk of the Supreme Court of
the United States and within the time allowed for filing said Petition for Writ of Certiorari :

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

   

Dated at Midland, Midland County, Texas, thi day of October, 2020.

  
 
 

Subs¢ribed and Sworn to before me
is ay of February, 2020.

 

  
 

epositor, Steve Hershberger, Attorney

    

Nqtary Public, in and for the State of Texas

Respectfully submitted,

    

     
  

~~
s. 1” “*. Joanna Mandonado
= “> ~My Commission Expires
w. -@ 05/18/2024

: ID No. 126275751

, Wee

Steve Hershberger, Attorney at Law
600 No. Marienfeld St., Ste. 1035
Midland, TX 79701

432-570-4014

      
     
  

      

Attorney for Petitioner
